                              AUDIT REPORT                                    IG-03-015




Report Recipients:
A/Program Executive
 Officer for the Integrated    INTEGRATED FINANCIAL MANAGEMENT
 Financial Management
 Program                        PROGRAM CORE FINANCIAL MODULE
B/Deputy Chief Financial      CONVERSION TO FULL COST ACCOUNTING
 Officer for Financial
 Management
B/Director, Integrated                              May 30, 2003
 Financial Management
 Program
B/Deputy Director,
 Integrated Financial
 Management Program
MSFC/RS02/Core Financial
 Project Manager




 cc:
 B/Audit Liaison
   Representative
 JM/Director, Management
   Assessments Division
 JM/Team Lead
 MSFC/RS40/Audit
   Liaison Representative




                              OFFICE OF INSPECTOR GENERAL
                              Released by: __[original signed by]_____________
                              David M. Cushing, Assistant Inspector General for Auditing
 National Aeronautics and
 Space Administration
IG-03-015                                                                  May 30, 2003
 A-01-061-00

                 Integrated Financial Management Program
                     Core Financial Module Conversion
                           to Full Cost Accounting

In conducting this audit, we found that the Core Financial Module software, which has
been implemented at six NASA Centers, has the capability to implement full cost
accounting. Before implementation can take place, NASA must resolve several
extraordinarily complex accounting and costing issues. These involve how to allocate
service and general and administrative (G&A) costs, civil service costs, and unassigned
costs. These issues incorporate NASA’s conspicuous inability to provide full cost
accounting data for the International Space Station (ISS) and the Space Shuttle. Once the
accounting and costing issues are resolved, NASA has to configure the Integrated
Financial Management Program (IFMP) software to reflect the changes.

According to NASA’s plans for full cost accounting, IFMP, and the Core Financial
Module, the Agency will begin configuring the IFMP software after the last NASA
Center has implemented the Core Financial Module (currently scheduled for June 23,
2003). NASA will have to resolve the cost accounting issues in slightly over 3 months
following June 23, 2003, and then configure the Core Financial Module software in order
for NASA to meet its targeted implementation date of October 1, 2003. As noted in
NASA’s Core Financial Project Full Cost Configuration Strategy, if full cost procedures
are not implemented by October 1, 2003, the Agency faces a high risk that it will be
unable to use IFMP to report full cost accounting data until fiscal year (FY) 2005. A
substantial delay in the availability of full cost accounting data could extend the
implementation date of the Agency’s overall Full Cost Initiative.

Converting Core Financial Module Software To Accommodate Full Cost Accounting

Although NASA’s Full Cost Initiative Agencywide Implementation Guide (Full Cost
Guide) establishes Agencywide service and G&A cost pools, it does not establish Center-
unique cost pools and does not address how the Core Financial Module will allocate
service and G&A costs, civil service personnel costs, and unassigned costs required to
implement full cost accounting. Pools are used to accumulate similar costs and are
distributed to projects based on an allocation methodology that best represent the types of
costs that are in the pools. For example, wind tunnel costs can be accumulated in a wind
tunnel service pool and allocated to programs based on hours of usage. NASA will need
to (1) establish the appropriate cost pools, (2) configure the Core Financial Module
software to accommodate the cost pool structure, and (3) properly test the new
configuration.
Accounting and Costing Issues

G&A Cost Allocation. NASA’s Full Cost Guide states that each Center will be
responsible for managing its respective G&A costs and requires the Centers to allocate
these costs to specific projects. Currently, NASA does not tie G&A costs to specific
projects. Examples of G&A costs are costs associated with financial management,
procurement, security, and legal activities. To successfully allocate these costs to
projects, Agency and Center management should (1) determine the content of the G&A
cost pool, (2) determine the G&A levels required to support operations, (3) determine the
rate at which G&A costs will be allocated, and (4) establish the appropriate structure
within the Core Financial Module to ensure accurate allocations of G&A costs to all
projects.

Space Shuttle Program. Determining which costs should be allocated to programs
(such as the ISS) that benefit from Space Shuttle services is a vital component of
NASA’s efforts to establish the full cost of its programs. NASA has recently addressed
the issue of allocating Space Shuttle costs to the ISS. However, the Agency needs to
decide whether and how Space Shuttle Program costs will be allocated to other benefiting
NASA programs and projects and must then determine how the Core Financial Module
will accommodate that decision.

Civil Service Personnel Costs. Civil service personnel costs must be directly associated
with the project to which they relate. Currently, NASA does not have a standardized
Agencywide methodology for associating civil service personnel costs to projects.
Establishing this methodology could be challenging in identifying personnel who work in
more than one project, G&A cost area, or service cost area.

Unassigned Costs. NASA has five Strategic Enterprises that cover the major areas of
the Agency's research and development efforts. In NASA’s FY 2001 Consolidated
Statement of Net Cost, the Agency reported costs of more than $1 billion that were not
assigned to specific Enterprises. To achieve full cost accounting, NASA should
determine a methodology for allocating those costs to benefiting programs.

Recommendation

We recommended that the Deputy Chief Financial Officer for Financial Management
revise the IFMP plans to include:

   •   Timeframes and milestones for completing steps implementing full cost
       accounting, including addressing and resolving the cost issues identified above.
   •   Identification of the personnel and other resources necessary to perform the steps
       within the established timeframes.
   •   Senior management approval and support of these additional procedures.




                                            2
Management’s Response

Management concurs with the recommendation. NASA has formed the Full Cost Policy
and Operations Team, comprised of members from the Centers, the IFMP Core Financial
Team, and Headquarters enterprise/functional offices. The Team has identified
timeframes, milestones, and resources for completing the steps necessary to implement
full cost accounting and to address those cost issues identified in the report. The Team
will brief and make recommendations to the NASA Full Cost Committee and update the
Full Cost Initiative Agencywide Implementation Guide. In addition, NASA has
appointed a full-time Director of Full Cost to manage the full cost implementation
process. The Agency plans to have all phases of full cost accounting implemented by
October 1, 2003.

Evaluation of Management’s Response

Based on management’s response; further discussion with the NASA Program Executive
for IFMP, Deputy Chief Financial Officer, and Director of Full Cost; and review of
NASA’s full cost planning documentation, we consider management’s action responsive
to the recommendation, which is now closed.


Appendices

Among the appendices, note Appendix D, in particular, which discusses NASA’s history
of implementing a financial management system, and Appendix E on full cost
management.




                                           3
List of Appendices

Appendix A – Recommendation Status

Appendix B – Background

Appendix C – Objectives, Scope, and Methodology

Appendix D – NASA’s History of Implementing a Financial Management
             System

Appendix E – Full Cost Management and IFMP

Appendix F – Key IFMP Officials and Responsibilities

Appendix G – Prior Audit Reports

Appendix H – Management’s Comments Dated February 26, 2003

Appendix I – Management’s Comments Dated April 4, 2003

Appendix J – Report Distribution




Acronyms Used in the Report

CFO         Chief Financial Officer
FY          Fiscal Year
G&A         General and Administrative
IFMP        Integrated Financial Management Program
ISS         International Space Station
OIG         Office of Inspector General




                                      4
               Appendix A. Recommendation Status

  Recommendation No.        Resolved    Unresolved   Open/ECD* Closed
         1                     X                                 X

*ECD – Estimated Completion Date.




                                    5
                                  Appendix B. Background

The IFMP is the Agency’s third attempt in more than 12 years to establish a fully
integrated, federally compliant1 financial management system.2 NASA spent about $130
million on its prior efforts and expects to spend more than $800 million for its current
efforts.

NASA established the Core Financial Project3 to provide management and technical
leadership for implementing the Core Financial Module, one of eight IFMP modules.
The Core Financial Module is the backbone of the IFMP and will consist of the NASA-
wide fully integrated and auditable accounting system that the Agency now lacks. The
other seven IFMP modules will be integrated/interfaced with the Core Financial Module.4
NASA plans to complete full deployment of the Core Financial Module at its Centers by
June 23, 2003.

One of the primary objectives of the IFMP is to support the Agency’s Full Cost Initiative,
which began in response to NASA requirements and Federal law (see Appendix E). In
February 1999, NASA published its “Full Cost Initiative Agencywide Implementation
Guide” (Full Cost Guide). The guide describes three elements of the Full Cost Initiative
as follows:

         Full Cost Accounting. In full cost accounting, all costs are tied to a particular
         NASA project and consist of direct costs,5 service costs,6 and G&A costs.7

         Cost-based Budgeting. All costs are budgeted against NASA projects and
         NASA plans, manages, and controls funds based on a project perspective.




1
  Office of Management and Budget's Financial Management Initiative was developed in response to the
President’s Management Agenda and requires Federal agencies to have a standardized, centralized
financial accounting system to support day-to-day operations and to track task completion.
2
  The NASA Office of Inspector General has performed prior audits related to the Agency’s attempts to
implement the IFMP. Those audit results are summarized in Appendix G.
3
  The Core Financial Project Manager in Huntsville, Alabama, is responsible for the successful
implementation of the Core Financial Module and has the authority to manage the implementation of the
module within the policies and guidelines established by the IFM Program Office. The Core Financial
Project team supports the Core Financial Project Manager. Appendix F describes key IFMP officials and
their responsibilities.
4
  SAP Public Sector and Education, Inc., of Washington, D.C., supplies the commercial off-the-shelf
software for the Core Financial Module.
5
  Direct costs are costs that can be readily related to a specific project. Examples of direct costs are
materials and labor.
6
  Service costs are costs that cannot be immediately related to a project. Examples of service costs are
information technology and publishing services. These costs are later related to a project and are
distributed to a project based on usage or consumption.
7
  G&A costs are costs that cannot be related to a specific project, but benefit all activities. Examples of
G&A costs are financial management and procurement.


                                                      6
                                                                                       Appendix B

        Full Cost Management. The project manager should use cost information to
        make informed decisions regarding resources management in order to optimize
        the cost-effective performance of a particular project. Full cost management
        cannot be achieved until full cost accounting and cost-based budgeting is
        successfully implemented.

NASA also developed an IFMP Program Plan and a Core Financial Project Plan in
accordance with NASA Procedures and Guidelines 7120.5A, “Program and Project
Management Processes and Requirements,” dated April 3, 1998. These plans establish a
structure for managing the IFMP Core Financial Module.

The Core Financial Module will become NASA’s system of record for Federal fiscal year
(FY) 2004. Beginning October 1, 2003, all NASA Centers will use the Core Financial
Module to implement full cost accounting and to produce NASA’s financial statements.
Additionally, the Core Financial Module will contain the data that NASA’s independent
auditors will rely on to accomplish their annual financial statement audits. As a first step
in successfully implementing its Full Cost Initiative, NASA must successfully implement
full cost accounting within the Core Financial Module. However, the Core Financial
Module alone will not implement NASA’s Full Cost Initiative. NASA will achieve its
Full Cost Initiative only by also successfully implementing the Budget Formulation
Module.8 Implementation of the Budget Formulation module will begin in October 2003
and will be completed in February 2004.




8
 The Budget Formulation Module will implement budget development, reporting, cost-based budgeting,
and management and will interface with the Core Financial Module.




                                                  7
             Appendix C. Objectives, Scope, and Methodology

Objectives

The original audit objectives were to determine whether the Core Financial Module
would:

   •   properly implement NASA’s Full Cost Initiative Implementation Guide and

   •   adequately support NASA’s preparation and audit of its financial statements.

After we started our audit work, we learned that the Core Financial Module alone would
not implement NASA’s Full Cost Initiative (see Appendix E). Only through successful
implementation of the Core Financial Module, in conjunction with the successful
implementation of the Integrated Financial Management Program (IFMP) Budget
Formulation Module, will NASA achieve its Full Cost Initiative. Currently, the IFMP
Budget Formulation Module is not scheduled for completion until February 2004. Since
realizing that the Core Financial Module would not implement NASA’s Full Cost
Initiative, we modified our first objective to determine whether the Core Financial
Module would implement full cost accounting – a primary component of the Agency’s
Full Cost Initiative, by the target date of October 1, 2003.

During our review, we learned that NASA contracted with PricewaterhouseCoopers
Consulting (now International Business Machines) to perform an independent system
compliance review of the Core Financial Module software, including testing transactions,
to help determine whether the Core Financial Module would adequately support NASA’s
preparation and audit of its financial statements. Through coordination with NASA
officials and International Business Machines and to avoid duplication of audit work, we
agreed to rely on the work performed by International Business Machines to address our
second objective.

Scope and Methodology

Our audit focused on the Core Financial Module because it (1) is the backbone of the
IFMP, consisting of the NASA-wide fully integrated auditable accounting system and (2)
is slated for implementation at all NASA Centers by June 2003. We did not perform
work related to the Budget Formulation Module (to be implemented at all Centers by
February 2004).




                                           8
                                                                                          Appendix C

Marshall Space Flight Center (Marshall) was tasked to be the Lead Center for the Core
Financial Module. The Integrated Financial Management Program (IFMP) facility is in
Huntsville, Alabama. We performed audit work at the Marshall IFMP facility and NASA
Headquarters. Personnel working at the IFMP facility include the Core Financial Module
implementation team, integration team, program office representatives, and NASA-hired
consultants.

To accomplish our objectives, we held regular meetings with IFMP and Core Financial
Module officials,9 attended training sessions10 with Core Financial Module and NASA
program office officials, and reviewed the following IFMP and Core Financial Module
documentation:

    •   the IFM Program Commitment Agreement,
    •   IFM Program and Core Financial Module Project plans, and
    •   results reported by the independent validation and verification team.11

In addition, we researched the following in order to gain an understanding of full cost
accounting, financial statement requirements, and NASA program requirements:

    •   Chief Financial Officer’s Act of 1990;
    •   Federal Financial Management Improvement Act of 1996;
    •   Federal Accounting Standards Advisory Board Standard Number 4;
    •   NASA’s Full Cost Initiative Agencywide Implementation Guide, February 1999;
    •   Office of Management and Budget Bulletin 97-01, “Form and Content of Agency
        Financial Statements”;
    •   NASA Procedures and Guidelines 7120.5A, “Program and Project Management
        Processes and Requirements”;
    •   NASA Policy Directive 7120.4B, “Program/Project Management”; and
    •   Joint Financial Management Improvement Program cost-related requirements.




9
 Each month, the IFM Program Office conducts a meeting by video-teleconference as a means to keep all
personnel working on the IFMP abreast of current issues related to all IFMP projects.
10
   In June 2002, we attended “pre-training” sessions for the MSFC finance personnel. The sessions covered
changes to the financial management system as a result of the upcoming Core Financial Module
implementation.
11
   The independent validation and verification team’s mission is to increase software safety and quality,
reduce software costs, and improve delivery time through the early detection and resolution of errors by
utilizing and applying empirically based software engineering best practices.


                                                    9
Appendix C

During IFMP facility visits, we obtained access to the software NASA purchased to
operate the Core Financial Module to learn some of its capabilities. We also met
frequently with the independent verification and validation team NASA hired in order to
understand their objectives and the work performed to help ensure that NASA would be
successful in implementing the Core Financial Module. We also spoke with contractor
(SAP Public Sector and Education, Inc., of Washington, D.C.) employees and attended a
demonstration of software for the Core Financial Module at SAP’s Washington, D.C.,
office to learn about some of the software’s features relating to audit capabilities.

We have performed prior audits of the IFMP, which are summarized in Appendix G.

Audit Field Work

We performed audit field work from October 2001 through November 2002 in
accordance with generally accepted accounting government auditing standards. We did
not use computer-processed data in the audit.




                                           10
              Appendix D. NASA’s History of Implementing a
                     Financial Management System

In 1989, the Office of Management and Budget reported that NASA did not have a
standardized, centralized financial accounting system, which constituted a material
internal control weakness. To resolve the problem, the Agency began work on two major
system development projects: the NASA Accounting and Financial Information System
and the Time and Attendance/Labor Distribution Module. NASA designed both of these
systems to incorporate and link the numerous systems at the NASA field Centers and
Headquarters using specially designed software.

In February 1995, the NASA Chief Financial Officer terminated all work on both
systems and redirected efforts toward a new approach for an integrated financial
management information system through the purchase of commercial-off-the-shelf
software. NASA referred to the new project as the Integrated Financial Management
Project, which was also called the IFMP.

The scope of the IFMP was planned to be much larger than that of the NASA Accounting
and Financial Information System and the Time and Attendance/Labor Distribution
Module and was to consist of many subsystems to be implemented in two phases. Phase
I included the processes of core accounting, budget formulation and execution,
procurement, time attendance and labor distribution, travel, and an executive information
system. Phase II would include the processes of payroll, personnel, receivables, and
grant management. One of the initial steps in the IFMP was to reengineer each of those
processes to streamline and improve them. Once the process reengineering was
complete, the plan was to identify, evaluate, and acquire software that best fit those
processes.

A full-time Project Manager and 12 employees were appointed to manage the project at
Headquarters (see Appendix F for descriptions of key officials and their responsibilities).
The reengineering tasks and software selection process were carried out by 168 NASA
employees in various teams at each Center. As of August 1995, NASA scheduled system
implementation by October 1, 1997. However, due to project delays, implementation
was postponed until July 1, 1999. NASA awarded a fixed-price contract to KPMG Peat
Marwick of Washington, D.C., on September 18, 1997, to provide and implement the
IFMP software.

On February 26, 1998, KMPG notified NASA that it would not meet key elements of the
contract delivery schedule. NASA issued a contract modification that extended delivery
to June 1, 2000, and allowed additional costs.




                                            11
Appendix D

On December 1, 1998, KPMG made an incomplete delivery of the IFMP system to the
IFMP Integrated Test Facility – the first major milestone under the revised delivery
schedule. The incomplete delivery required further contract modification, and NASA
was unable to determine the extent to which the incomplete delivery would affect the
revised delivery schedule. As a result, NASA issued a stop work order to KPMG in
March 2000.

In March 2000, NASA established a new management team and a new strategy for
implementing an integrated financial management system. The new effort would consist
of eight modules, with the Core Financial Module as the backbone of the system. The
eight modules and their completion dates are Resume Management (December 2001),
Position Description Management (September 2002), Travel Management (February
2003), Core Financial (planned for June 2003), Budget Formulation (planned for
February 2004), Human Resources (to be determined), Asset Management (to be
determined), and Procurement Management (to be determined).

On September 20, 2000, NASA selected a contractor, SAP Public Sector and Education,
Inc., of Washington, D.C., to deliver a commercial-off-the-shelf software core accounting
system to replace the 10 accounting systems used by the NASA Centers. A team
comprised of some of NASA’s most highly motivated employees representing a broad
range of skill levels was organized at NASA’s Marshall Space Flight Center to
implement the pilot program there and to support implementation at the other NASA
Centers. The Agency’s plan is that the Core Financial Module accounting software will
run at the Marshall Space Flight Center and the remainder of the Agency will use a single
instance of the application from all NASA Centers that will feed into the database
running at the Marshall Space Flight Center. NASA’s planned IFMP Core Financial
system deployment sequence is: Pilot Center (George C. Marshall Space Flight Center)
and Glenn Research Center at Lewis Field – deployed in October 2002; Headquarters,
Lyndon B. Johnson Space Center, and John F. Kennedy Space Center – deployed in
March 2003; Ames Research Center – April 2003; and Dryden Flight Research Center,
Goddard Space Flight Center, Langley Research Center, and John C. Stennis Space
Center – June 2003.




                                           12
               Appendix E. Full Cost Management and IFMP

In February 1999, NASA issued the Full Cost Initiative Agencywide Implementation
Guide. The initiative began in 1995 in response to guidance from several NASA and
Federal authorities. The initiative also stemmed from the Agency’s inability to obtain
information regarding NASA overhead costs at each Center. In response to the initiative,
the NASA Chief Financial Officer (CFO) confirmed that NASA’s nonstandard,
decentralized accounting systems did not capture overhead costs in a consistent, rigorous,
reliable, or usable manner, leading NASA to commence the Full Cost Initiative. More
specifically, NASA based the Full Cost Initiative on the following guidance:

       Federal Accounting Standards Advisory Board Statement of Federal
       Financial Accounting Standards Number 4: Managerial Cost Accounting
       Standards and Concepts. This statement requires that reporting entities report
       the full costs of outputs in general-purpose financial reports. Each entity’s full
       cost should incorporate all the costs of goods and services that it receives from
       other entities. The full cost of resources that directly or indirectly contribute to
       the production of outputs should be assigned to outputs through the costing
       methodologies or cost-finding techniques that are most appropriate to the entity’s
       operating environment, and the methodologies or techniques should be followed
       consistently. The full cost of an output produced by a responsible segment of the
       entity is the sum of (1) the costs of resources consumed by the output and (2) the
       costs of identifiable supporting services provided by other responsibility segments
       within the reporting entity and by other reporting entities.

       Federal Financial Management Improvement Act of 1996. The Act provides
       for consistency of accounting by an agency from one fiscal year to the next and
       for uniform accounting standards throughout the Federal Government. The Act
       also requires Federal financial management systems to support full disclosure of
       Federal financial data, including the full costs of Federal programs and activities,
       to the citizens, the Congress, the President, and agency management so that
       programs and activities can be considered based on their full costs and merits.

       Office of Management and Budget Bulletin No. 97-01, “Form and Content of
       Agency Financial Statements.” This bulletin requires reporting entities to
       define and establish responsible offices for cost accumulation and reporting and
       to report the full cost assigned to each responsible office. Program costs include
       the full costs of the program outputs and consist of the direct costs and all other
       costs that can be directly traced, assigned on a cause and effect basis, or
       reasonably allocated to the program outputs.




                                            13
Appendix E

         Program costs also include any nonproduction costs that can be assigned to the
         program but not to its outputs.

         CFO Act of 1990. The CFO Act requires reporting entities to prepare and
         transmit, by not later than 60 days after the submission of the audit report, an
         annual report to the agency head and the Director of the Office of Management
         and Budget. The report shall include a description and analysis of the status of
         financial management of the agency and the annual financial statements.

NASA’s Plan. According to the Full-Cost Initiative, NASA’s programs and projects12
are the primary activities upon which full cost data will be developed and used. NASA
plans to assign costs to programs and projects by directly tracing costs when
economically feasible, assigning service costs on a cause-and-effect basis and allocating
general and administrative costs on a reasonable and consistent basis.

         Service Costs13 will be “charged” or assigned to a project based on project-
         controlled service use (that is, consumption). Because there are many ways to
         measure consumption and, therefore, to assign costs, the key criteria for cost
         assignment selection is the adequacy of the linkage between the cost incurred and
         the benefiting party. NASA assigned service pool distribution bases for cost
         assignment in Appendix 4 of NASA’s Full Cost Initiative Agencywide
         Implementation Guide.

         General and Administrative Costs14 will be allocated to projects in a consistent,
         logical manner based on a metric that indirectly relates such costs to NASA
         projects. For example, a Center’s general and administrative rate, or cost per full-
         time equivalent, will be the total general and administrative cost divided by the
         total project direct labor.15

In addition, the Full-Cost Initiative will support full disclosure and full accountability of
NASA’s resources.

The software in the Core Financial Module supports NASA’s full cost accounting. The
project system module, which is within the Core Financial Module, records cost data
against the applicable projects. The contractor’s (SAP Public Sector and Education, Inc.,
of Washington, D.C.) software uses the cost pools to allocate costs to the benefiting


12
   Programs are major activities, within a Strategic Enterprise, that have defined goals, objectives,
requirements, phased funding levels, and consist of one or more projects. Projects are significant activities,
within a program, that have defined goals, objectives, requirements, and life-cycle requirements, a
beginning, and an end. Single-project programs are defined as programs.
13
   NASA will assign service pool costs to cost objectives.
14
   NASA will allocate general and administrative costs to cost objectives.
15
   Total project direct labor consists of civil service, direct labor, and on-site contractor direct labor.

                                                     14
                                                                              Appendix E

projects. For example, costs will be recorded against primary cost elements based on the
fund code structure on the source (funding) document. The full cost accounting method
will help ensure that indirect labor, travel, and general and administrative costs will be
allocated to the benefiting projects.




                                            15
           Appendix F. Key IFMP Officials and Responsibilities

Program Executive. The Program Executive is responsible for corporate level
management of program rollout, budget, performance, and schedule requirements for the
Integrated Financial Management Program (IFMP). The Program Executive has decision
authority over all IFMP content, implementation schedules, and budget allocations and
provides leadership and accountability for top-level program requirements,
implementation success criteria, overall performance definition, and strategic planning in
the direction and operation of the IFMP.

Program Director. The Program Director reports to the Program Executive and has lead
responsibility for management of the IFMP. The Program Office for the IFMP has
responsibility to implement the IFMP according to the Program Commitment Agreement,
the IFMP Program Plan, and the individual IFMP Project Plans. The Program Director is
under the oversight of the Agency’s Chief Financial Officer (CFO) and the IFMP
Steering Council.

Chief Financial Officer. The CFO is responsible for ensuring that the IFMP meets
externally mandated requirements while satisfying internal customer needs in a cost-
effective manner.

Steering Council. The Steering Council acts as a forum for reviewing and approving the
Agencywide crosscutting facets of the program to include Agency Business Drivers,
program strategy, program budgets, module sequencing and priority, commercial off-the-
shelf software modifications, change management strategy, and project scope expansion.
Other responsibilities include resolving functional conflicts, project execution issues,
change management issues, process team issues, and ensuring functional integration.

Project Manager. The Project Manager is Center-based and responsible for planning
and managing each functional module as the IFMP Program office approves. Each
Project Manager is semiautonomous and has the authority to manage the implementation
of the assigned function within the policies and guidelines established by the IFMP
Program Office. The Project Manager coordinates process team activities and supports
the selection of software products, including updating requirements based on the selected
software’s capabilities and the developed gap assessments (gap assessments identify
differences between NASA’s requirements and the software’s capabilities).

Integration Project Manager. The Integration Project Manager is responsible for
establishing a viable technical infrastructure and ensuring the coordination of the various
functional module requirements. Other responsibilities include ensuring that each IFMP
module is appropriately integrated/interfaced, minimizing redundant data, and ensuring
that data definitions are consistent across modules. Additional responsibilities include




                                            16
                                                                           Appendix F

establishing life-cycle requirements, configuration management, infrastructure and
support, and module and system testing. Day-to-day leadership of the Integrated Project
Teams is a responsibility shared by NASA and the implementation contractor
(Accenture).




                                           17
                       Appendix G. Prior Audit Reports


The NASA Office of Inspector General (OIG) has performed prior audits related to
NASA’s first attempt at implementing Integrated Financial Management Program
(IFMP) as summarized below.

       “Early Phases of NASA's Integrated Financial Management Project
       (IFMP),” Report Number IG-97-001, October 21, 1996. The OIG reported to
       NASA management that additional steps should be taken in IFMP planning to
       ensure that the project was cost-effective and consistent with important
       management objectives and legal requirements. The steps should include
       conducting functional and overall risk analyses as part of the requirements
       definition, performing and documenting a comprehensive analysis of alternatives
       for meeting requirements, modifying project plans to include several key cost
       issues and alternatives, and preparing a more realistic project schedule.

       “Observations Regarding the NASA Employee Attendance Tracking
       System,” Management Letter Number M-IG-97-011, July 15, 1997. The OIG
       reviewed NASA’s planned implementation of the employee attendance-tracking
       module of the IFMP. We recommended that before developing its own system as
       a separate module under the IFMP, NASA consider the feasibility of cross-
       servicing with other Federal agencies that had already implemented successful
       employee time and attendance systems.

       “NASA’s Integrated Financial Management Project – Time and
       Attendance/Labor Distribution Module,” Report Number IG-98-004,
       December 17, 1997. The OIG continued its review of NASA’s planned
       implementation of the employee attendance-tracking module of the IFMP to
       ensure that NASA considered appropriate management controls. We reported to
       NASA management that several key management controls and security
       mechanisms needed to be built into NASA’s planned time and attendance module
       of the IFMP to reduce the risk of errors with critical labor distribution data and to
       protect sensitive personnel data.

       “Implementation of NASA’s Integrated Financial Management Project,”
       Report Number IG-99-026, April 27, 1999. We reported that the IFMP
       contractor, KPMG Peat Marwick of Washington, D.C., would not deliver to
       NASA a commercial off-the-shelf (COTS)-based integrated financial
       management system by July 1999 and that KPMG had not developed the COTS
       software and several other technical requirements as agreed to under the contract.
       These problems required further contract modification, and NASA was unable to
       determine the extent to which the problems would affect the revised delivery
       schedule.



                                            18
                                                                  Appendix G

“Survey Results for the Audit of NASA’s Integrated Financial Management
Program,” Assignment Number A-01-061-00, March 29, 2002. During our
survey, we reviewed the procurement actions, as of November 2001, that
supported the acquisition and implementation of the Core Financial Module for
the IFMP. We found no discrepancies regarding those actions and reported that
as of January 2002, the Core Financial Module was within budget and on
schedule.




                                  19
Appendix H. Management’s Comments Dated February 26, 2003




                           20
Appendix I. Management’s Comments Dated April 4, 2003




                         21
                      Appendix J. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Assistant Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget




                                         22
                                                                        Appendix J

Non-NASA Federal Organizations and Individuals (Cont.)

Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         23
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or
can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Integrated Financial Management Program Core Financial Module
              Conversion to Full Cost Accounting

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent              Fair
      Very Good              Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

      Congressional Staff                       Media
      NASA Employee                             Public Interest
      Private Citizen                           Other:
      Government:             Federal:             State:         Local:


May we contact you about your comments?

 Yes: ______                                     No: ______
 Name: _______________________________
 Telephone: ___________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Major Contributors to this Report

Chester A. Sipsock, Associate Director, Office of Audits (OA) Quality Control Division

Karl Allen, Project Manager, OA Financial Management

Gene Griffith, Auditor

Daniel Birnbaum, Auditor

Annette Huffman, Program Assistant
